Executive Report



Return to the USDOJ/OIG Home Page



Audit of the Jail Services Cost Statement forINS 
	Intergovernmental Service Agreementwith Denton County, Texas
GR-80-00-005December 20, 1999Office of the Inspector General

EXECUTIVE SUMMARY
The Immigration and Naturalization Service (INS) requested that we determine whether an increase to Denton County's per diem rate was warranted.  We attempted to audit the Denton County facility's Jail Services Cost Statement.  However, we determined that the Cost Statement included FY 1999 data, which we had difficulty substantiating.  In order to provide the contracting officer with an indicator of Denton County's detention costs, our audit covered incurred operating costs for the period October 1, 1997, through September 30, 1998.  We reviewed the accuracy of the costs listed in the accounting records, evaluated the allowability of those costs, determined the per diem rate, and compared that per diem rate to the per diem rates paid to other surrounding facilities. 

We determined that the Denton County facility incurred costs of $13,860,476 during FY 1998.  We identified cost exceptions totaling $520,061.  These costs were either:  (1) not allocable to the federal award, or (2) did not relate to the housing of federal detainees.    

Based on our review of direct and indirect costs incurred by the Denton facility for FY 1998, we determined the per diem rate to be $44.74.  This per diem rate would be consistent with per diem rates paid to surrounding facilities.
 
These findings are described in detail in the Findings and Recommendations section of this report.  Our audit Scope and Methodology appear in Appendix I.